     DEPARTMENT OF HEALTH & HUMAN SERVICES                                  OFFICE OF INSPECTOR GENERAL

                                                                            Office of Audit Services, Region III
                                                                            Public Ledger Building, Suite 316
                                                                            150 S. Independence Mall West
                                                                            Philadelphia, PA 19106-3499



May 18, 2011

Report Number: A-03-10-00203

Mr. Wayne Turnage
Director
District of Columbia Department of Health Care Finance
899 North Capitol Street, Suite 600
Washington, DC 20001

Dear Mr. Turnage:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector General
(OIG), final report entitled Review of District of Columbia Medicaid Durable Medical Equipment,
Prosthetics, Orthotics, and Supplies Provider Enrollment Practices. We will forward a copy of
this report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported. We
request that you respond to this official within 30 days from the date of this letter. Your response
should present any comments or additional information that you believe may have a bearing on the
final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly available
reports on the OIG Web site. Accordingly, this report will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Robert Baiocco, Audit Manager, at (215) 861-4486 or through email at
Robert.Baiocco@oig.hhs.gov. Please refer to report number A-03-10-00203 in all correspondence.


                                               Sincerely,



                                               /Stephen Virbitsky/
                                               Regional Inspector General
                                                for Audit Services

Enclosure
Page 2 – Mr. Wayne Turnage

Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
   Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL




  REVIEW OF DISTRICT OF COLUMBIA
    MEDICAID DURABLE MEDICAL
EQUIPMENT, PROSTHETICS, ORTHOTICS,
AND SUPPLIES PROVIDER ENROLLMENT
            PRACTICES




                         Daniel R. Levinson
                          Inspector General

                             May 2011
                           A-03-10-00203
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov
                       HU                   U




 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In the District of Columbia (the District),
the Department of Health Care Finance (State agency) administers the Medicaid program.

District of Columbia Medicaid Durable Medical Equipment Program

Pursuant to its Medicaid State plan, the District provides durable medical equipment and
prosthetics, orthotics and supplies (DMEPOS) for eligible beneficiaries through its Durable
Medical Equipment (DME) program. The DME program reimburses DMEPOS providers that
sell or rent to beneficiaries DMEPOS, including hospital beds, braces, home dialysis supplies
and equipment, therapeutic shoes for diabetics, wheelchairs, walkers, scooters, oxygen
equipment, and other home health care items. During the period January 1, 2007, through
June 30, 2010, the District’s DME program reimbursed providers approximately $50 million.
To receive and maintain a District Medicaid provider billing number, providers must meet the
standards established in Title 29 of the District of Columbia Municipal Regulations (DCMR).
Pursuant to 29 DCMR § 996.2(k), providers in the District’s DME program must be enrolled in
the Medicare program. District regulations provide grounds for administrative sanctions against
Medicaid DMEPOS providers that fail to comply with pertinent District laws and regulations.
The sanctions may include termination of the providers for the DME program (29 DCMR §
1302.1(c)). As of March 2010 the District had 195 active DMEPOS providers enrolled in its
Medicaid program.

Medicare Program

Pursuant to Title XVIII of the Act, the Medicare program provides health insurance to people
age 65 and over and to those suffering from permanent kidney failure and to certain people with
disabilities. CMS administers the Medicare program and contracts with four Medicare
Administrative Contractors to process DMEPOS claims. CMS also contracts with the National
Supplier Clearinghouse (Clearinghouse), operated by Palmetto Government Benefits
Administrators, to manage the enrollment of DMEPOS providers in the Medicare program.
(Medicare refers to its providers as “suppliers.”) The Clearinghouse is responsible for enrolling
providers in Medicare, issuing DMEPOS provider numbers nationwide, and ensuring that
providers comply with federally mandated provider standards. To bill the Medicare program,
Medicare DMEPOS providers must have a supplier number. With CMS’s approval, the
Clearinghouse can revoke a DMEPOS provider’s Medicare supplier number for failure to
comply with 1 or more of the 30 federally-mandated provider standards.



                                                i
OBJECTIVE

Our objective was to determine whether the State agency complied with District requirements
when DMEPOS providers’ Medicare supplier numbers had been revoked.

SUMMARY OF FINDINGS

The State agency did not comply with District requirements when DMEPOS providers Medicare
supplier numbers had been revoked. In May 2010, we identified 10 District Medicaid DMEPOS
providers whose Medicare supplier numbers were in revoked status. The Clearinghouse had
revoked the Medicare supplier numbers of these 10 for violating one or more of the Medicare
supplier enrollment standards. All 10 remained active in the District’s Medicaid program
because the State agency had no control in place to check the Medicare status of DMEPOS
providers. After we informed the State agency that the providers were revoked by Medicare, the
State agency took action to terminate the 10 providers from its Medicaid DME program.

RECOMMENDATIONS

We recommend that the State agency implement a procedure to check the status of DMEPOS
providers’ Medicare supplier numbers and to take the appropriate action in accordance with
District regulations when CMS has revoked a Medicare supplier’s number.

STATE AGENCY COMMENTS

In written comments to our draft report, the State agency concurred with our recommendation
and said that it would implement a procedure to check the status of providers’ Medicare supplier
numbers and take appropriate action when the supplier number has been revoked. The State
agency clarified our finding to note that the Clearinghouse had rescinded the Medicare
termination of 1 of the 10 providers identified by the Office of Inspector General.

The State agency’s comments are presented in their entirety in the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                            Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicaid Program ........................................................................................1
              Medicare Program ........................................................................................1
              National Supplier Clearinghouse .................................................................1
              District of Columbia Medicaid Durable Medical Equipment Program .......2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ............................................................................................................2
               Methodology ................................................................................................2

FINDINGS AND RECOMMENDATIONS ....................................................................3

          DISTRICT REGULATIONS...................................................................................3

          REVOKED DURABLE MEDICAL EQUIPMENT PROVIDERS ........................4

          ACTION TAKEN ....................................................................................................4

          RECOMMENDATIONS .........................................................................................4

          STATE AGENCY COMMENTS ............................................................................4

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                                INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In the District of Columbia (the District),
the Department of Health Care Finance (State agency) administers the Medicaid program.

Medicare Program

Pursuant to Title XVIII of the Act, the Medicare program provides health insurance to people
age 65 and over and to those suffering from permanent kidney failure and to certain people with
disabilities. CMS administers the Medicare program and contracts with four Medicare
Administrative Contractors (MAC) that process claims for durable medical equipment and
prosthetics, orthotics and supplies (DMEPOS). The MAC for the District is National Heritage
Insurance Company.

Medicare reimburses providers 1 that sell or rent DMEPOS that are necessary to meet
beneficiaries’ health care requirements at home. DMEPOS include hospital beds, braces, home
dialysis supplies and equipment, therapeutic shoes for diabetics, wheelchairs, walkers, scooters,
oxygen equipment, and other items.

National Supplier Clearinghouse

CMS contracts with the National Supplier Clearinghouse (Clearinghouse), which is operated by
Palmetto Government Benefits Administrators, to manage the enrollment of providers in the
Medicare program. A provider of DMEPOS may be an entity or individual. The Clearinghouse
is responsible for enrolling providers, issuing Medicare supplier numbers nationwide, and
ensuring that providers comply with federally mandated provider standards. To bill the
Medicare program, DMEPOS providers must have a Medicare supplier number. With CMS’s
approval, the Clearinghouse can revoke a DMEPOS provider’s Medicare supplier number for
failure to comply with 1 or more of the 30 federally-mandated provider standards. 2



1
 The Medicare program uses the term “DMEPOS suppliers.” The District Medicaid program uses the term
“DMEPOS providers.” We have generally used the term “DMEPOS provider” for both Medicare and Medicaid,
except when referring to specific Medicare requirements such as the Medicare supplier number.
2
    Federal regulations (42 CFR § 424.57(c)) establish the Medicare standards.

                                                           1
District of Columbia Medicaid Durable Medical Equipment Program

Pursuant to its Medicaid State plan, the State agency provides DMEPOS consistent with the
Medicare schedule for eligible beneficiaries through its Durable Medical Equipment (DME)
program. The DME program reimburses providers that sell or rent DMEPOS to beneficiaries.
To receive and maintain a District Medicaid provider billing number, providers must meet the
standards established in Title 29 of the District of Columbia Municipal Regulations (DCMR).
As of March 2010 the District had 195 active DMEPOS providers enrolled in its Medicaid
program.

Pursuant to 29 DCMR § 996.2(k), providers in the District’s DME program must be enrolled in
the Medicare program. District regulations provide grounds for administrative sanctions against
Medicaid DMEPOS providers that fail to comply with pertinent District laws and regulations.
The sanctions may include termination of the providers for the DME program (29 DCMR §
1302.1(c)).

During the period January 1, 2007, through June 30, 2010, the State agency reimbursed
DMEPOS providers approximately $50 million.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with District requirements
when DMEPOS providers’ Medicare supplier numbers had been revoked.

Scope

We reviewed State agency records in March 2010 that identified 195 providers as participating in
the District’s DME program. The Clearinghouse provided the current status of each provider’s
Medicare supplier number. We did not review the overall internal control structure of the State
agency. We limited our review to those controls related to the State agency’s methodology for
reviewing Medicaid DMEPOS providers for compliance with District standards. We conducted
our review at the State agency offices in Washington, DC, in March 2010.

Methodology

To accomplish our objective, we:

   •    reviewed Federal Medicare and Medicaid regulations, District Medicaid laws and
        regulations pertaining to DMEPOS provider participation in the Medicare and Medicaid
        programs;

   •    reviewed the portion of the District’s State plan related to DMEPOS;




                                                2
   •   interviewed State agency officials to determine their policies and procedures for provider
       participation in the District’s DME program;

   •   interviewed Clearinghouse officials to determine their policies and procedures for
       DMEPOS provider participation in the Medicare program;

   •   obtained the Medicare provider enrollment status provided by the Clearinghouse for the
       195 District DMEPOS providers;

   •   compared the Medicare and Medicaid provider enrollment status for the 195 District
       DMEPOS providers; and

   •   discussed our findings with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency did not comply with District requirements when DMEPOS providers’
Medicare supplier numbers had been revoked. In May 2010, we identified 10 District Medicaid
DMEPOS providers whose Medicare supplier numbers were in revoked status. The
Clearinghouse had revoked the Medicare supplier numbers of these 10 for violating one or more
of the Medicare supplier enrollment standards. All 10 remained active in the District’s Medicaid
program because the State agency had no controls in place to check the Medicare status of
DMEPOS providers. After we informed the State agency that the providers were revoked by
Medicare, the State agency took action to terminate the 10 providers from its Medicaid DME
program.

DISTRICT REGULATIONS

To receive and maintain a District Medicaid provider billing number, providers must meet the
standards established in Title 29 of DCMR. Pursuant to 29 DCMR § 996.2(k), providers in the
District’s DME program must be enrolled in the Medicare program. Providers in the District’s
DME program are also subject to the District’s administrative regulations, which provide
grounds for administrative sanctions against Medicaid DMEPOS providers for failure to comply
with pertinent District laws and regulations. Sanctions may include termination of the providers
for the DMEPOS program (29 DCMR § 1302.1(c))




                                                3
REVOKED DURABLE MEDICAL EQUIPMENT PROVIDERS

We identified 10 DMEPOS providers whose Medicare supplier numbers were revoked; however,
all 10 remained active District Medicaid DMEPOS providers. The State agency did not have a
procedure in place to check the current Medicare status of DMEPOS providers and therefore did
not know that 10 of its DMEPOS providers were in revoked status in the Medicare program for
failure to comply with Federal standards.

ACTION TAKEN

In June 2010, we brought the 10 DMEPOS providers to the attention of the State agency, which
began action to terminate them from the District’s Medicaid program. Subsequently, we
coordinated with the Clearinghouse and the State agency to ensure that the State agency received
a monthly list of DMEPOS providers that had been revoked in the Medicare program. However,
at the time of this review, the State agency had not established written procedures to ensure that
officials review the list and promptly terminate District DMEPOS providers who have been
revoked in the Medicare program due to standards violations.

RECOMMENDATIONS

We recommend that the State agency implement a procedure to check the status of DMEPOS
providers’ Medicare supplier numbers and to take the appropriate action in accordance with
District regulations when CMS has revoked a Medicare supplier’s number.

STATE AGENCY COMMENTS

In written comments to our draft report, the State agency concurred with our recommendation
and said that it would implement a procedure to check the status of providers’ Medicare supplier
numbers and take appropriate action when the supplier number has been revoked. The State
agency clarified our finding to note that the Clearinghouse had rescinded the Medicare
termination of 1 of the 10 providers identified by the Office of Inspector General.

The State agency’s comments are presented in their entirety in the Appendix.




                                                4
APPENDIX
                                                                                                          Page 1 of 2


                            APPENDIX: STATE AGENCY COMMENTS

                         GOVERNMENT OF THE DISTRICT OF COLUMBIA 

                               Department of Health Care Finance 


Office of the Director
                 APR 2 :1 20\1                    --
                                                  ***

Stephen Virbitsky
Regional Inspector General for A udit Services
U.S. Department of Health and Human Services
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106-3499


Re: Report Number: A-03-10-00203


Dear Mr. Virbitsky:

This letter responds to the U.S. Department of Health and Human Services, Office of Inspector General (OlG) draft
report entitled Review of District of Columbia Medicaid Durable Medical Equipment. Prosthetics, Orthotics,
and Supplies Provider Enrollment Practices. The Department of Health Care Finance (DHCF) appreciates the
opportunity to respond to this draft report, and apologizes for the delayed response.

The audit found 10 District Medicaid DMEPOS providers whose Medicare supplier numbers were in revoked status
and therefore should have had their Medicaid Provider status terminated. However, a\l 10 remained in the District's
Medicaid program because the State agency had no control in place to check the Medicare status of DMEPOS
providers.

The draft report recommends that:

         The District's Medicaid program implement a procedure to check the status ofDMEPOS providers'
         Medicare supplier numbers and to take the appropriate action in accordance with District regulations when
         CMS has revoked a Medicare supplier's number.

DHCF also determined that of the 10 providers identified:

         1. 	 One provider's Medicare termination has been rescinded. The provider submitted proof of Medicare
              enrollment and the information was verified; and
         2. 	 Seven providers were functionally inactive in the DC Medicaid program having not been paid for any
              claims by DC Medicaid after the date of their Medicare termination.

We concur with your recommendation and DHCF will implement a policy and procedure to check the status of
DMEPOS providers' Medicare supplier numbers and take the appropriate action in accordance with District
regulations when CMS has revoked a Medicare suppliers' number. DHCF will implement the procedure by no later
than October 1,2011. This action will be taken by DHCF's Health Care Operations Administration.
                                                                                                           Page 2 of 2




Thank you again for this opportunity to respond to this draft report. We look forward to the continued collaboration
in ensuring an efficient and compliant Medicaid program. Should you have any questions, please contact Brenda
Sutton on (202) 698-2018 or via e-mail at Brenda.Sutton2@dc.gov.




Wayne Turnage
Director


cc: Ann Page, Director of HCAA
    Pat Squires, Interim Director of HCOA
    Laurie Rowe, Manager, Office of Provider Services
